Jaime A. Santos
+1 202 346 4034
JSantos@goodwinlaw.com

Goodwin Procter LLP
1900 N Street, NW
Washington, DC 20036
goodwinlaw.com
+1 202 346 4000

October 27, 2020

VIA PRIORITY MAIL AND ELECTRONIC FILING
Honorable Scott S. Harris
Clerk
United States Supreme Court
1 First Street, NE
Washington, DC 20543
Re:

Keith Adair Davis v. State of Washington, No. 20-5379

Dear Mr. Harris:
With the consent of David B. Koch, whose electronic signature appears below, I am appearing as
counsel of record for the petitioner in this case. The petition for certiorari is currently scheduled for
distribution on November 5, 2020.
Respondent sought and received two extensions, totaling 30 days, of the time in which to respond to
the petition. The brief in opposition was due October 30, 2020. Respondent then filed nine days early,
on October 21, 2020.
Pursuant to this Court’s order of March 19, 2020, addressing the ongoing public health concerns
related to COVID-19, I respectfully request that the distribution of the petition for certiorari be delayed
until November 18, 2020, the date on which the petition would have been distributed had respondent
filed the brief in opposition on the October 30, 2020 due date respondent sought and received. This
delay is warranted in light of COVID-19’s impact on my schedule (including the challenges of providing
education for my three school-aged children) and other professional obligations, especially given my
recent retention.
Counsel for respondent does not oppose this request.
Sincerely,
Jaime A. Santos
/s/ David B. Koch (with permission)
David B. Koch

